—=—
I

C@OCKLE

2311 Douglas Street Le ga l Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-18
ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of January, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF LOS ANGELES COUNTY POLICE CHIEFS’
ASSOCIATION AS AMICUS CURIAE IN SUPPORT OF THE JUDGMENT BELOW in the above entitled case. All

parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for: ‘
J. SCOTT TIEDEMANN*
ALEX Y. WONG
LIEBERT CASSIDY WHITMORE
6033 W. Century Blvd., Suite 500
Los Angeles, CA 90045
(310) 981-2000
stiedemann@lewlegal.com
awong@lcwlegal.com
*Counsel of Record
Counsel for Amicus Curiae

Subscribed and sworn to before me this 14th day of January, 2021.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

| GENERAL MOTARY-State of Nebraska if Chih
! RENEE J, GOSS 9. ( deadbeat é
My Comm. Exp. September 5, 2023

Notary Public Affiant 40463

   
   

 

 
Attorneys for Petitioner:
Brian Halligan Fletcher
Counsel of Record
Stanford Law School Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305
bfletcher@law.stanford.edu
650-724-3345
Party name: Arthur Gregory Lange

Attorneys for Respondent:
Samuel Thomas Harbourt
Counsel of Record
California Department of Justice, Office of the Solicitor General
455 Golden Gate Ave Suite 11000
San Francisco, CA 94102
Samuel.Harbourt@doj.ca.gov
415-510-3919
Party name: State of California

Other:
Amanda Kelly Rice
Counsel of Record
Jones Day
150 W. Jefferson Ave., Suite 2100
Detroit, MI 48226
arice@jonesday.com
313-230-7926
Party name: Court-appointed amicus curiae in support of the judgment below
